                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT lVIEMORANDUM

III (:ase Number:         1-08-12-0058                                                        Page 1 of 1



          We conducted an investigative review of an institution l that had an award2 with a large3 post­
          expiration draw-down of funds.

          Subsequent investigation, which included a thorough review of source documentation for all of
          the relevant charges, revealed that all charges to the' award were incurred during the award
          period. There were no indications of·fraud or other wrongdoing.

          Accordingly, this investigationis closed.




 NSF OIG Form 2 (11102)
            I
